No. 19-277
In the

Supreme Court of the United States
__________________

HSBC HOLDINGS PLC, CITIGROUP GLOBAL MARKETS
LIMITED, TENSYR LIMITED, AND BA WORLDWIDE FUND
MANAGEMENT LIMITED, ET AL.,
Petitioners,
v.
IRVING H. PICARD,
__________________

Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Second Circuit

__________________

BRIEF OF AMICI CURIAE CAYMAN FINANCE
AND RECOVERY AND INSOLVENCY
SPECIALISTS ASSOCIATION OF THE CAYMAN
ISLANDS IN SUPPORT OF PETITIONER
__________________
JASON P. GOTTLIEB
Counsel of Record
DANIEL C. ISAACS
VALERIE SIROTA
MORRISON COHEN LLP
909 Third Avenue
New York, New York 10022
(212) 735-8600
jgottlieb@morrisoncohen.com
Counsel for Amici Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

THIS CASE IS EXCEPTIONALLY
IMPORTANT BECAUSE THE DECISION
WILL HAVE A DISRUPTIVE AND
DETRIMENTAL
EFFECT
ON
INSOLVENCY PROCEEDINGS IN
FOREIGN COUNTRIES SUCH AS THE
CAYMAN ISLANDS . . . . . . . . . . . . . . . . . . . . 5
A. The Decision Disrupts the Legitimate
Expectations of Investors, Including
Investors in the Financial Services Sector
in the Cayman Islands . . . . . . . . . . . . . . . . 8
B. The Decision Introduces Elements That
May Be At Odds With Foreign Insolvency
Regimes . . . . . . . . . . . . . . . . . . . . . . . . . . 13
C. The Decision Will Undermine the Ability
of Foreign Liquidators to Conduct
Liquidations . . . . . . . . . . . . . . . . . . . . . . . 15

II.

THIS CASE IS EXCEPTIONALLY
IMPORTANT BECAUSE THE DECISION
VIOLATES PRINCIPLES OF COMITY. . . . 17

III.

EXPANDING SECTION 550(a)(2) TO
INCLUDE EXTRATERRITORIAL
APPLICATION IS UNNECESSARY . . . . . . 20

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ii
TABLE OF AUTHORITIES
CASES
Babcock & Wilcox (Canada) Ltd.,
[2000] 5 B.L.R. (3d) 75 . . . . . . . . . . . . . . . . . . . . 24
Blum v. Bruce Campbell & Co.,
[1992-93] CILR 591 . . . . . . . . . . . . . . . . . . . . . . 23
Didisheim v. London & Westminster Bank,
[1900] 2 Ch. 15 . . . . . . . . . . . . . . . . . . . . . . . . . . 22
EEOC v. Arabian Am. Oil Co.,
499 U.S. 244 (1991). . . . . . . . . . . . . . . . . . . . . . . 14
Fruit of the Loom,
[2000] CILR Note 7 . . . . . . . . . . . . . . . . . . . . . . . 21
In re Ascot Fund Ltd.,
603 B.R. 271 (Bkrtcy. Ct. S.D.N.Y. 2019) . . . . . 12
In the Matter of Al Sabah,
[2002] CILR 148 . . . . . . . . . . . . . . . . . . . . . . . . . 22
In the Matter of Changgang Dunxin
Enterprise Co. Ltd., [8 February 2018]
Cause No. FSD 270 of 2017 (IMJ),
Grand Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
In the Matter of CHC Group Ltd.,
[24 January 2017] Cause No. FSD 5 of 2017
(RMJ), Grand Court . . . . . . . . . . . . . . . . . . . . . . 21
In the Matter of China Agrotech Holdings Ltd.,
[2017 (2)] CILR 526 . . . . . . . . . . . . . . . . . . . . . . 21

iii
In the Matter of Heriot African Trade Finance
Fund Limited, [2011 (1)] CILR 1 . . . . . . . . . . . . . 9
In the Matter of HSH Cayman I GP Ltd.,
[2010 (1)] CILR 375. . . . . . . . . . . . . . . . . . . . 23, 24
In The Matter of Lancelot Investors Fund Ltd.,
[2009] CILR 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
In the Matter of Philadelphia Alternative
Investment Fund, Ltd., [22 February 2006]
Cause No. 440 of 2005, Grand Court . . . . . . . . . . 8
Maxwell Commc’n Corp. PLC by Homan v. Societe
Generale (In re Maxwell Commc’n Corp. plc),
93 F.3d 1036 (CA2 1996) . . . . . . . . . . . . . . . . . . 17
Morrison v. National Australia Bank, Ltd.,
561 U.S. 247 (2010). . . . . . . . . . . . . . . . . . 4, 14, 15
Phillips Petroleum Co. v. Shutts,
472 U.S. 797 (1985). . . . . . . . . . . . . . . . . . . . . . . 12
Picard v. Primeo Fund,
[2014 (1)] CILR 379. . . . . . . . . . . . . . . . . . . . 18, 19
Trident Microsystems (Far East) Ltd.,
[2012 (1)] CILR 424. . . . . . . . . . . . . . . . . . . . . . . 21
STATUTES
11 U.S.C. § 550(a)(2) . . . . . . . . . . . . . . . . . 3, 5, 20, 24

iv
OTHER AUTHORITIES
Brief for Amici Curiae Cayman Finance, Recovery
and Insolvency Specialists Association in
Support of Defendants-Appellees, In Re: Irving
H. Picard, Trustee for the Liquidation of Bernard
L. Madoff Investment Securities LLC, 17-2992(L),
(CA2 May 10, 2018), Dkt. No. 1102 . . . . . . . . . . 13
Forum Shopping Is Bad; Choice Of Forum Is Good?
– The Investment Fund Perspective, Chief Justice
Anthony Smellie QC, The Eleventh
INSOL/UNCITRAL/World Bank Judicial
Colloquium, San Francisco, March 2015,
available at https://www.judicial.ky/wpcontent/uploads/publications/speeches/2015-0421 ChiefJusticesPresentationatSanFranciscoIN
SOLJudicialColloquium.pdf . . . . . . . . . . . . . . . . 10
The Madoff Recovery Initiative, available at
https://www.madofftrustee.com/timeline-31.html
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

1
INTEREST OF THE AMICI CURIAE1
Cayman Finance is the association of the financial
services industry of the Cayman Islands. Cayman
Finance represents first-rate service providers within
investment funds and asset management, banking,
insurance, reinsurance, capital markets, and trusts
sectors and world class fiduciary, legal, and accounting
service providers. Additionally, Cayman Finance
represents 15 Cayman Islands industry associations.
Cayman Finance is committed to protecting,
promoting, developing, and growing the Cayman
Islands financial services industry through cooperation
and engagement with domestic and international
political leaders, regulators and organisations; to
promote the integrity and transparency of the industry
by legislative and regulatory enactment and to
encourage the sustainable growth of the industry
through excellence, innovation and balance.
The Recovery and Insolvency Specialists Association
of the Cayman Islands (“RISA”) is a not-for-profit
membership organisation dedicated to promoting and
supporting restructuring and insolvency specialists in
the Cayman Islands. RISA focuses on investigating
and sharing best practices amongst industry
practitioners in the fields of insolvency, restructuring
and litigation, through both education and networking.
1

This brief is filed with the written consent of all parties. No
counsel for either party authored this brief in whole or in part, nor
did any party or other person or entity other than amicus curiae,
its members, or its counsel make a monetary contribution to the
brief’s preparation or submission. Counsel of record for all parties
received notice at least 10 days prior to the due date of the
intention of amici to file this brief.

2
Its membership (which includes both attorneys and
accountants) frequently appear in, give evidence in or
are otherwise the subject of proceedings conducted in
the United States and elsewhere in the world.
The Cayman Islands are respected worldwide as an
international financial services center with a system of
law based on English common law and a stable political
environment.
It is the domicile of choice for
approximately 70% of the world’s hedge funds and a
significant proportion of private equity funds, with over
10,000 regulated alternative investment entities.
Accordingly, the amici curiae have an interest in
ensuring that international insolvency principles are
applied equitably, and in a manner consistent with the
principle of comity and ongoing international
cooperation.
The amici curiae offer their view because this case
involves critically important issues to Cayman Islands
financial services, including but not limited to Cayman
insolvency proceedings.
The amici curiae are
concerned that the decision of the Second Circuit Court
of Appeals may irrevocably harm the manner in which
cross-border insolvency proceedings are conducted as
between the United States and the Cayman Islands
and, in particular, may have a negative impact on the
important interplay between the available asset
recovery procedures in those jurisdictions. Such
impacts would, in turn, subvert the expectations of
parties worldwide who invest in Cayman Islands-based
alternative investment entities—including a significant
number of United States investors, such as pension
funds and other American investment pools.

3
SUMMARY OF ARGUMENT
In this case, Respondent Irving H. Picard, the
Trustee for the liquidation of Bernard L. Madoff
Investment Securities LLC, seeks to use 11 U.S.C.
§ 550(a)(2) to recover pre-bankruptcy transfers of
assets that originally came from the now-bankrupt
Madoff securities firm. Many of these transfers were
made by foreign “feeder” funds to their foreign
customers. The feeder funds are located abroad, their
customers are located abroad, the transfers took place
abroad, and the assets are located abroad. The Trustee
seeks to apply an American statute to people, property,
and events located in foreign countries—to use Section
550(a)(2) to “claw back” foreign property held by
foreigners in foreign lands, regardless of what the
foreign law would indicate, or how a foreign insolvency
proceeding would determine the rights of the relative
parties.
In the decision below (the “Decision”), the United
States Court of Appeals for the Second Circuit, in
relevant part, ruled that when the Trustee seeks
recovery of foreign transfers from one foreign entity to
another, it is a “domestic” application of U.S. law, and
the presumption against extraterritoriality is not
implicated, even when such recovery conflicts with the
foreign law. The amici curiae respectfully join in the
arguments advanced by Petitioners (alleged recipients
of indirect overseas transfers, through foreign
investment funds, from Bernard L. Madoff Investment
Securities LLC) that the Decision fundamentally
changes the territorial scope of the U.S. Bankruptcy
Code, and contravenes this Court’s precedents, those of

4
other circuits, and applicable foreign procedure. In the
process, it contravenes the legitimate expectations of
investors and financial parties—including many in the
United States—and sows the international discord that
the presumption against extraterritoriality seeks to
avoid.
The Petitioners ably describe how the Decision
conflicts with this Court’s post-Morrison precedent
regarding the presumption against extraterritoriality.
The amici curiae, for their part, will address how the
Decision, if left to stand, subjects firms and individuals
in the Cayman Islands (and by extension, elsewhere) to
substantial uncertainty in situations involving crossborder insolvencies. In particular, when financial
institutions or investors operate in multiple
jurisdictions, as many of Cayman Finance’s members
do, they rely on predictable choice-of-law rules that
respect territorial boundaries. But if the Bankruptcy
Code’s avoidance provisions were applied
extraterritorially, trustees in the U.S. could attack
foreign transactions that are valid in the jurisdictions
where the transacting parties operate and where the
transactions occurred. Such attacks would frustrate
the reasonable expectations of market participants in
foreign countries, and would risk provoking legal
conflicts with other nations’ insolvency
proceedings—which would have the net effect of
delaying international insolvencies, where speedy,
equitable resolution is often a key goal of the process.
In view of these consequences, the amici curiae
submit that extraterritorial reaches into the Cayman
Islands regime threaten to destabilize it, injecting

5
unpredictability into a system that is currently
relatively predictable. The amici curiae further submit
that the Decision will create uncoordinated and
potentially competing avoidance claims, sowing
confusion, causing delay, and increasing cost. As a
result, it is likely to undermine the ability to recover
fraudulent transfers.
Finally, it would be wrong to suggest that, unless
Section 550(a)(2) is given extraterritorial effect, assets
in the custody of foreign subsequent transferees will be
lost to the U.S. bankruptcy estate. U.S. officeholders
can use the courts of the Cayman Islands to recover
assets for the benefit of the U.S. bankruptcy estate,
and have done so in the past. Foreign subsequent
transferees are not immune from avoidance claims or
able to undermine the ability of bankruptcy trustees to
avoid and recover fraudulent transfers through the use
of entities incorporated in the Cayman Islands.
Accordingly, expanding the reach of Section 550(a)(2)
to include extraterritorial application is not only
intrusive but also unnecessary.
ARGUMENT
I.

THIS
CASE
IS
EXCEPTIONALLY
IMPORTANT BECAUSE THE DECISION
WILL HAVE A DISRUPTIVE AND
DETRIMENTAL EFFECT ON INSOLVENCY
PROCEEDINGS IN FOREIGN COUNTRIES
SUCH AS THE CAYMAN ISLANDS

The extraterritorial application of the Bankruptcy
Code and international comity are recurring and
important issues that warrant the Court’s attention.

6
The Decision, which allows U.S. courts to apply U.S.
law to foreign transfers that took place abroad,
broadens the scope of the Bankruptcy Code to the point
that it will conflict with foreign proceedings, and
foreign judicial decisions. By allowing a U.S. trustee to
interfere with the legitimate interests of foreign
sovereigns and the expectations of investors in foreign
funds, the Decision interferes with the ability of foreign
sovereigns to regulate transactions within their own
jurisdictions and conduct their own insolvency
proceedings. Hence, the Decision allows the Trustee an
end run around foreign liquidation proceedings, and
may subject participants in those insolvency
proceedings either to undeserved windfalls, or to
double liability.
If permitted to stand, the Decision will have
substantially deleterious effects on foreign insolvency
proceedings, including those in the Cayman Islands.
First, the Decision expands U.S. bankruptcy law in
a way that would disrupt longstanding investor
expectations, most powerfully in the Cayman Islands
financial sector.
The Decision will allow U.S.
bankruptcy trustees to unwind, under U.S. law,
Cayman Islands financial transactions between
Cayman Islands funds and their foreign investors years
after the transfers were made, regardless of whether
Cayman Islands law governed the transactions or
whether Cayman Islands law would bar the
transactions from being unwound. This outcome is
directly counter to the policy of promoting the finality
and certainty of completed financial transactions. As
a practical matter, the Cayman Islands will be a much

7
less attractive venue for foreign investors—including
many United States investors, such as pension
funds—if transfers these investors receive can
suddenly be subject to a claim in the United States
years after the transfer has been completed.
Second, by effectively prioritizing the interest of
U.S. bankruptcy trustees over that of Cayman Islands
liquidators, the Decision introduces elements that may
be at odds with the well-developed Cayman Islands
insolvency regime. Permitting a U.S. debtor who has
a claim against a Cayman Islands debtor to enhance its
recoveries at the expense of the Cayman Islands
debtor’s remaining creditors undermines the
considerations of equity that the Cayman Islands
restructuring regime is designed to promote. Namely,
in any given situation, a Cayman Islands insolvency
judge may reach a decision on whether to allow the
claw back of a particular transfer under applicable
Cayman Islands law. There is no guarantee that a U.S.
bankruptcy judge would reach the same decision, or
even apply the same principles in order to reach that
decision.
Third, if a U.S. debtor can circumvent a Cayman
Islands liquidation and bring claims directly against a
Cayman Islands debtor’s creditors, it will undermine
the ability of Cayman Islands liquidators to conclude
liquidations in a timely and efficient matter. Cayman
Islands liquidators will need to await resolution of the
U.S. litigation before making distributions and winding
up the estate. This not only will delay resolution of
Cayman Islands liquidations—by years, in many
cases—but will increase their professional costs,

8
reducing recoveries for the creditors of a Cayman
Islands debtor.
A. The Decision Disrupts the Legitimate
Expectations of Investors, Including
Investors in the Financial Services
Sector in the Cayman Islands
It is settled law in the Cayman Islands that
investors in vehicles incorporated in the Cayman
Islands have a reasonable and legitimate expectation
that their investment—and the vehicle to which it
relates—will be conducted in accordance with Cayman
law. Investors expect that key Cayman laws, such as
the Cayman insolvency regime (including the
Companies Winding Up Rules), will apply.
This reasonable expectation has been widely
recognized by the Grand Court of the Cayman Islands.
In In the Matter of Philadelphia Alternative Investment
Fund, Ltd.,2 Henderson, J. stated:
When the petitioners made the decision to invest
in a company domiciled in the Cayman Islands
they would have had a reasonable and
legitimate expectation that, in the event a
winding up was necessary, it would occur in the
Cayman Islands under the applicable law here.
In In The Matter of Lancelot Investors Fund Ltd.,3
Quin, J. endorsed this approach, stating:

2

[22 February 2006] Cause No. 440 of 2005, Grand Court
(Henderson, J.).

3

[2009] CILR 7, 20, 23, 24.

9
Henderson, J. stated the law of the Cayman
Islands as it was in 2005. The company in
Philadelphia was domiciled in the Cayman
Islands, and this was the jurisdiction in which it
should be wound up. The petitioners had a
legitimate expectation that it would be wound
up in the Cayman Islands . . . .
. . . I follow Henderson, J.’s judgment in
Philadelphia . . . .
. . . [I]nvestments made through the company
and onwards into Lancelot USA were made in
the Cayman Islands. The arrangements by
which these investments were made are
governed by the laws of the Cayman Islands.
Any claims that the petitioners and, indeed,
other investors may have against the company
will have to be examined and assessed according
to the law of the Cayman Islands.
Similarly, in In the Matter of Heriot African Trade
Finance Fund Limited,4 Jones, J. stated:
There is no basis upon which it can be said that
an ad hoc liquidation conducted by management
is itself part of the fund’s business, such that the
participating shareholders should not have any
reasonable expectation that the fund would be
liquidated in accordance with the Companies
Law and the Companies Winding Up Rules. To
the contrary, investors who put their money into
mutual funds incorporated in the Cayman
4

[2011 (1)] CILR 1, 23-24.

10
Islands have every reason to expect that the
companies’ affairs will be conducted in
accordance with Cayman law, including the
Companies Winding Up Rules.
In a paper presented to the INSOL Judicial Colloquium
at San Francisco in March 2015, the Chief Justice of
the Cayman Islands, the Honorable Anthony Smellie
QC,5 similarly stated:
The choice of forum is important to the
investors’ decision to invest and reflects their
expectation that Cayman law will apply to the
liquidation of their investments if things go
wrong. . . . .
There were however, significant assets also
within the Cayman Islands and the investors
who petitioned the Cayman court for winding up
had invested with the expectation that any
disputes over their rights would be resolved in
keeping with Cayman law . . . . It is not
uncommon also that investors expect that any
conduct or allegations of irregularity would be
investigated and subsequent appropriate steps
taken in keeping with Cayman law.

5

Forum Shopping Is Bad; Choice Of Forum Is Good? – The
Investment Fund Perspective, Chief Justice Anthony Smellie QC,
The Eleventh INSOL/UNCITRAL/World Bank Judicial
Colloquium, San Francisco, March 2015, at 8, 17, available at
https://www.judicial.ky/wp-content/uploads/publications/speeches/
2015-04-21 ChiefJusticesPresentationatSanFranciscoINSOLJudici
alColloquium.pdf.

11
Accordingly, consistent with offering documents and
governing law provisions, investors in Cayman
funds—including significant U.S. investors in such
funds—have a legitimate expectation that, where a
Cayman Islands company is subject to Cayman Islands
insolvency proceedings, Cayman Islands law applies.
U.S. federal courts also recognize investor
expectations as significant.
As one example, a
bankruptcy judge in the Southern District of New York
very recently analyzed this point in granting
recognition of a foreign main bankruptcy proceeding:
From the Ascot Fund investors’ point of view,
and as a matter of fact and law, they invested in
a Cayman fund and their rights were to be
determined under Cayman law. Ascot Fund
operated under the Amended and Restated
Memorandum and Articles of Association of
Ascot Fund Limited, dated Oct. 31, 2006 (the
“Articles”). (Ex. 2 at ¶ 7; Ex. 19.) The Articles
were governed by Cayman law and provided the
rules for distributions from Ascot Fund,
including distributions in the event of a
liquidation. (Ex. 19 at ¶¶ 180-88, 200-02.) Each
shareholder signed a subscription agreement
(the “Subscription Agreement”) (Ex. 4) which
was governed by Cayman law, (id. at 10, § III.C),
and stated that Ascot Fund was a Cayman
company governed by Cayman law. (Ex. 4 at 1,
4.) Investments in Ascot Fund were solicited
through a confidential offering memorandum
(the “Confidential Offering Memorandum”),
dated October 2006, (Ex. 22), which informed its

12
investors that “Ascot Fund Limited is a Cayman
Islands exempted company” “organized to
operate as a private investment fund to facilitate
investment by non-U.S. Persons and any
investors that the Fund’s board of directors
deems appropriate,” (id. at 16), and subject to
the regulations of the Cayman Islands Monetary
Authority. (Id. at iii-iv.)
In re Ascot Fund Ltd., 603 B.R. 271, 283-84 (Bkrtcy. Ct.
S.D.N.Y. 2019) (emphasis in original). Indeed, in the
face of the justifiable expectations of a party concerning
the law governing its transaction, a court that applies
a forum’s law that is “totally arbitrary” or
“fundamentally unfair to a litigant” invokes
Constitutional due process concerns. See generally
Phillips Petroleum Co. v. Shutts, 472 U.S. 797, 837
(1985) (Stevens, J., concurring).
When investors agree to participate in a foreign
investment, they rightly make that decision, in part, in
reliance on the material choice-of-law provisions in
their investment contract. Investors in Cayman
Islands funds—both U.S. and foreign—deliberately
selected those vehicles desiring, and expecting,
Cayman Islands law to govern that investment. If it
stands, the Decision would subvert the expectations of
those investors. And given the central import of the
Cayman Islands to alternative investment vehicles
around the world, the Decision’s effects will
reverberate in financial centers globally.

13
B. The Decision Introduces Elements That
May Be At Odds With Foreign
Insolvency Regimes
The Cayman Islands have been successful in
developing as home to tens of thousands of alternative
investment vehicles such as hedge funds and private
equity funds, in large part because of a stable,
predictable legal regime—including predictability
about the process of insolvency proceedings, and about
the outcome of any transfers made within the Cayman
Islands in the context of those insolvency proceedings.
As a major world financial center, the Cayman Islands
routinely play host to cross-border insolvencies and
disputes. As set forth in the brief of the amici curiae
before the Second Circuit, the Cayman Islands
insolvency regime enjoys a well-developed framework.6
The Second Circuit’s decision introduces a wild card
into this well-developed system: at any point, a U.S.
bankruptcy trustee could seek to unwind transactions
between two Cayman entities, which occurred in the
Cayman Islands, merely because an earlier transaction
6

See Brief for Amici Curiae Cayman Finance, Recovery and
Insolvency Specialists Association in Support of DefendantsAppellees, In Re: Irving H. Picard, Trustee for the Liquidation of
Bernard L. Madoff Investment Securities LLC, 17-2992(L), (CA2
May 10, 2018), Dkt. No. 1102. The substantive law relating to the
winding up of companies incorporated in the Cayman Islands is
contained in Part V of the Cayman Islands Companies Law (2018
Revision), which is supplemented by the detailed rules governing
practice and procedure set out in the Companies Winding Up
Rules, 2018 (as amended) (“CWR”), the Insolvency Practitioners’
Regulations 2018 (as amended) (“IPR”) and the Grand Court Rules
1995 (as amended), together with a substantial body of domestic
and English case law.

14
in the chain occurred in the United States. The
Decision thus authorizes courts within the Second
Circuit—contrary to other Circuits—to disturb other
nations’ insolvency proceedings by applying U.S. law to
parties, property, and transactions wholly located
abroad.
Without a straightforward Congressional grant of
extraterritorial reach—absent from Sections 548 and
550 of the Bankruptcy Code—there is a presumption
against extraterritoriality. See Morrison v. National
Australia Bank, Ltd., 561 U.S. 247, 255 (2010). And for
good reason: in certain areas of law, “[t]he probability
of incompatibility with the applicable laws of other
countries is so obvious that if Congress intended such
foreign application ‘it would have addressed the subject
of conflicts with foreign laws and procedures.’”
Morrison at 269, citing EEOC v. Arabian Am. Oil Co.,
499 U.S. 244, 248 (1991) (“Aramco”).
Aramco rejected overseas application of Title VII to
all domestically concluded employment contracts
because of the probability of incompatibility in
employment law.
Morrison rejected overseas
application of securities laws because of the probability
of incompatibility in foreign regulation of foreign
securities exchanges and securities transactions
occurring within their territorial jurisdiction. Here,
too, this Court should reject extraterritorial application
of U.S. bankruptcy law in foreign countries. The same
logic that Morrison applied to securities fraud applies
to allegedly fraudulent transfers: “the regulation of
other countries often differs from ours as to what
constitutes fraud, what disclosures must be made,

15
what damages are recoverable, what discovery is
available in litigation, what individual actions may be
joined in a single suit, what attorney’s fees are
recoverable, and many other matters.” Morrison at
269, citing Brief for United Kingdom of Great Britain
and Northern Ireland as Amicus Curiae 16–21.
The Cayman Islands insolvency regime has its own
well-developed rules for handling these many different
and oft-contested issues in the context of primary and
secondary transfers, and clawbacks of the same to a
debtor. In each case, the result might turn on different
facts than a U.S. court might consider dispositive.
Allowing a U.S. trustee to interfere with those welldeveloped rules risks introducing instability into a
highly stable system.
C. The Decision Will Undermine the Ability
of Foreign Liquidators to Conduct
Liquidations
The Second Circuit’s decision alters how any
liquidator appointed by the Grand Court of the
Cayman Islands can operate in a multinational set of
bankruptcy proceedings. Ordinarily, a liquidator could
proceed with the winding up, knowing that any parties
with interests in the debtor will appear timely in the
Cayman Islands winding up proceeding and make
whatever claim they will make.
However, if the Decision is left to stand, such
proceedings will be subject to disruption from foreign
trustees, who would have the legal authority in the
United States to recover secondary transfers in a U.S.
proceeding from funds that are the subject of the

16
winding up procedure in the Cayman Islands. It would
be incredibly difficult for a Cayman Islands liquidator
to manage a Cayman liquidation if a U.S. debtor could
pursue, in U.S. courts, creditors of Cayman Islands
companies. Rather than having co-ordinated and cooperative insolvency proceedings in the U.S. and the
Cayman Islands, the Decision will put those
proceedings in competition with each other. The U.S.
Trustee and the liquidator may both be pursuing the
same parties in relation to the same transactions, but
in different proceedings governed by different laws and
procedures.
Further, the potential for collateral claims may
impact how much the liquidator can distribute, and to
whom. In any liquidation proceeding, decisions must
be made about distributions, and a decision to
distribute to one creditor (or not) will necessarily affect
the recoveries of every other creditor in the proceeding,
by reducing (or not) the overall amounts for
distribution.
The only way to avoid such uncertainty is for a
liquidator to wait. In the event of any pending U.S.
litigation, a Cayman liquidator could wait out the end
of the U.S. litigation before making any distributions,
to avoid disruptive collateral attacks on his
distributions. However, that is not a practical option,
as this very case demonstrates. The U.S. trustee in
this case was appointed on December 15, 2008—over a
decade ago.7 While most insolvency proceedings may
not be as lengthy, it would be unreasonable to ask a
7

See The Madoff Recovery Initiative, available
https://www.madofftrustee.com/timeline-31.html.

at

17
Cayman Islands liquidator to wait for years for a U.S.
process to finish, as Cayman Islands creditors await
distributions to which they are entitled to receive
under Cayman law.
II.

THIS
CASE
IS
EXCEPTIONALLY
IMPORTANT BECAUSE THE DECISION
VIOLATES PRINCIPLES OF COMITY

The petition for certiorari seeks review on the basis
that the Second Circuit adopted a de novo standard of
review for abstentions based on international comity,
whereas other circuits reviewed those decisions for
abuse of discretion. The Second Circuit does, indeed,
err on that basis. The amici curiae here would urge
this Court to grant the writ not only because of the
wrong standard of review (and resultant circuit split),
but because the application of a de novo standard of
review led to a decision that violates well-settled
principles of international comity by allowing a U.S.
trustee to reach transfers in the Cayman Islands that
may not be recoverable under Cayman Islands law.
The Decision recites that “[i]nternational comity
comes into play only when there is a true conflict
between American law and that of a foreign
jurisdiction.”8 The Decision also states (perhaps
overlooking the brief of amici below) that the record
was “unclear about whether issues litigated in the
feeder funds’ liquidation proceedings abroad would

8

Decision at 31a, citing Maxwell Commc’n Corp. PLC by Homan
v. Societe Generale (In re Maxwell Commc’n Corp. plc), 93 F.3d
1036, 1049 (CA2 1996).

18
yield outcomes irreconcilable with the relief the
Trustee demands in these cases.”9
Insolvency law is rife with conflicts between
American and Cayman Islands laws. To begin with,
authorities in the Cayman Islands (and England)
suggest that the doctrine of comity does not require
that there be a conflict of laws such that compliance
with the laws of both countries is impossible. It is not
necessary under Cayman Islands law for the court to
identify a “true conflict” before applying the doctrine of
comity. Accordingly, there is a true conflict of law,
simply in deciding whether a comity analysis should
apply, and what type.
Further, there are conflicts in the very area of
fraudulent transfers. In Picard v. Primeo Fund,10 the
Grand Court had recognized Mr. Picard as a foreign
officeholder, and both the Grand Court and the
Cayman Islands Court of Appeal recognized the
jurisdiction of the Grand Court to entertain avoidance
claims ancillary to foreign bankruptcy proceedings,
under section 241 of the Companies Law. However, the
Court of Appeal also made clear that the law governing
those avoidance claims would be Cayman law, and not
the law of the officeholder seeking assistance of the
Grand Court. The Court of Appeal acknowledged “the
apparent illogicality of applying domestic law to
transaction avoidance issues when the distribution
regime is governed by a foreign law,” but took the view
that adopting the alternative approach “would
9

Decision at 32a.

10

[2014 (1)] CILR 379, 410, ¶ 54.

19
represent so radical a departure from the common law
that, had the legislature intended that result, it could
have been expected to say so in clear terms.”
In that case, relief was not available on the facts.
Mr. Picard was not able to use Cayman Islands
avoidance provisions to recover funds paid by Bernard
L. Madoff Investment Securities LLC to Primeo Fund
due to a fundamental difference in interpretation
between U.S. and English (and therefore Cayman
Islands) law over what constitutes property of the
debtor.
While the Trustee in this case has previously
asserted that “property of the debtor” includes
“property that would have been part of the estate had
it not been transferred before the commencement of
bankruptcy proceedings,” the Grand Court has
expressly rejected this interpretation in the Cayman
Islands. In Picard v. Primeo Fund, the Honorable
Justice Jones held, and the Court of Appeal agreed,
that the appropriate interpretation of “property of the
debtor” is, consistent with English jurisprudence, the
property which the debtor held at the commencement
of the liquidation, thereby excluding the right to avoid
preferential transactions. Id. at 380.
Just this one example demonstrates an
irreconcilable, actual conflict between the two
countries’ laws governing the handling of fraudulent
transfers. But there does not have to be this stark an
actual conflict in any given insolvency proceeding to
apply the lessons of comity. Each time a U.S. trustee
seeks to recover a secondary transfer in a Cayman
Islands insolvency proceeding, considerations of equity,

20
under Cayman Islands law, command the Cayman
Islands judge. U.S. law may or may not reach the same
result. Given the frequency of transfer issues in
insolvency proceedings, such potential conflicts may
potentially arise in virtually every insolvency
proceeding involving U.S. and Cayman Islands parties.
While the Decision maintains that “[t]the United
States has a compelling interest in allowing domestic
estates to recover fraudulently transferred property,”
Decision at 34a, the Cayman Islands have that exact
same compelling interest—allowing Cayman estates to
recover fraudulently transferred property. And where
a U.S. trustee seeks to allow a U.S. party to recover
fraudulently transferred property, where a Cayman
liquidator (or court) would seek to have a Cayman (or
other foreign) party recover that same fraudulently
transferred property, there will be a conflict. Allowing
a U.S. trustee to reach into the Cayman Islands thus
violates the principles this Court has advocated for
over a century.
III.

EXPANDING SECTION 550(a)(2) TO
INCLUDE EXTRATERRITORIAL
APPLICATION IS UNNECESSARY

The Decision’s extraterritorial application of the
Bankruptcy Code is both unwarranted, because of the
exceptionally well-developed and predictable state of
Cayman Islands insolvency law, and also unnecessary,
because the courts of the Cayman Islands are able and
willing to provide assistance to U.S. bankruptcy
trustees pursuing assets within that jurisdiction.

21
There are numerous examples in Cayman Islands
case law of the Grand Court providing support and
assistance to the courts and bankruptcy trustees in the
United States. One of the most common scenarios in
which the Grand Court provides assistance to U.S.
bankruptcy courts is in the context of Chapter 11
proceedings commenced in the United States. For
example, in Fruit of the Loom,11 the Grand Court
appointed provisional liquidators to the Cayman
Islands-domiciled holding company of a large corporate
group, in order to facilitate and support a restructuring
proceeding under Chapter 11 in Delaware. This
strategy has been implemented repeatedly in the
Grand Court since Fruit of the Loom, including in
Trident Microsystems (Far East) Ltd.,12 where the
restructuring was based in Delaware, and In the Matter
of CHC Group Ltd.,13 where the primary restructuring
was being overseen in Texas.
As noted above, as an alternative to appointing its
own provisional liquidators concurrent with U.S.
bankruptcy trustees, the Grand Court has also
provided recognition and assistance at common law to
foreign officeholders for the purposes of implementing
a parallel worldwide restructuring. In In the Matter of
China Agrotech Holdings Ltd.,14 the Honorable Justice
Segal recognized Hong Kong liquidators appointed to a
11

[2000] CILR Note 7.

12

[2012 (1)] CILR 424.

13

[24 January 2017] Cause No. FSD 5 of 2017 (RMJ), Grand Court
(McMillan, J.).
14

[2017 (2)] CILR 526, 533, ¶ 4.

22
Cayman Islands company so that they could “apply in
the name and on behalf of the Company for and
promote a parallel scheme in Cayman” following
receipt of a letter of request from the High Court of the
Hong Kong Special Administrative Region.15
These examples illustrate the willingness and
flexibility of the Grand Court to facilitate and support
insolvency proceedings in courts of concurrent
jurisdiction.
Outside of the legislative framework for recognition
of foreign insolvency proceedings outlined above, the
Grand Court has long been willing to deploy its
“inherent common law powers to recognize and enforce
the appointment of a foreign trustee in bankruptcy for
the purposes of bringing into the estate the assets of a
bankrupt which may exist in this jurisdiction.”16 The
rationale for this approach has been referred to as the
doctrine of comity as it exists between the courts of
friendly states, as described in Didisheim v. London &
Westminster Bank:17
On general principles of private international
law, the Courts of this country are bound to
recognise the authority conferred on [the foreign
appointee] by the Belgian Courts, unless

15

This approach was followed by another Grand Court judge
recently in In the Matter of Changgang Dunxin Enterprise Co. Ltd.,
[8 February 2018] Cause No. FSD 270 of 2017 (IMJ), Grand Court
(Mangatal, J.).
16

In the Matter of Al Sabah, [2002] CILR 148, 159, ¶ 31.

17

[1900] 2 Ch. 15 at 51.

23
[equivalent] proceedings in this country prevent
them from doing so.
These principles have been expressly applied in the
Cayman Islands in, among other decisions, Blum v.
Bruce Campbell & Co.,18 which dealt with recognition
in the Cayman Islands of a trustee appointed to assets
in the Cayman Islands by a Pennsylvania court and Al
Sabah, in the context of an application for recognition
of a Bahamian-appointed bankruptcy trustee, in order
to recover assets in the Cayman Islands.
In In the Matter of HSH Cayman I GP Ltd.,19 the
Cayman Islands Court of Appeal had to consider
whether the making of a winding up order in the
Cayman Islands offended the principles of comity in
circumstances where Chapter 11 proceedings were
afoot in Delaware. While the Court of Appeal agreed
with the judge at first instance that, on the facts of that
case, comity did not require the adjournment or stay of
winding up proceedings in the Cayman Islands, it
acknowledged the obligation of the Grand Court to “cooperate with foreign courts and to respect foreign
legislation . . . .” In doing so, the Court of Appeal
distinguished the facts of HSH Cayman from those
before the Canadian courts in Babcock & Wilcox
(Canada) Ltd.,20 where the Canadian courts stayed
proceedings under their Companies’ Creditors
Arrangement Act in aid of Chapter 11 proceedings in
the U.S. Bankruptcy Court in which a temporary
18

[1992-93] CILR 591, 603.

19

[2010 (1)] CILR 375, 377.

20

[2000] 5 B.L.R. (3d) 75.

24
restraining order had been made. In Babcock, Farley,
J. cited “the evolving common law principles of comity
which permitted the Canadian court to recognise and
enforce in Canada the judicial acts of other
jurisdictions.” Unlike in Babcock, the U.S. court had
not issued a temporary restraining order in relation to
HSH Cayman.
It is thus clear from the Cayman Islands authorities
that the doctrine of comity both obliges the Grand
Court to recognise the authority of foreign courts,
officeholders and legislation; and respectfully requests
that foreign courts and officeholders respect the
Cayman Islands domestic legal framework and “rights
of its own citizens or of other persons who are under
the protection of its laws.”
In sum, the Grand Court is willing and able to
assist officers of the U.S. courts in identifying and
recovering assets. In Cayman Finance’s and RISA’s
considerable experience of working together to such
ends, we submit that it is not accurate to say that,
absent the extraterritorial application of Section
550(a)(2), any assets transferred outside of the United
States are beyond the reach of the U.S. bankruptcy
trustee and so lost to U.S.-based creditors. The cases
outlined above demonstrate that the Grand Court has
numerous tools at its disposal, both in statute and at
common law, to provide assistance and support to U.S.
bankruptcy trustees (and indeed to insolvency
practitioners from a host of other jurisdictions around
the world).

25
CONCLUSION
For the reasons set forth above, and in the petition
for a writ of certiorari, Cayman Finance and Recovery
and Insolvency Specialists Association of the Cayman
Islands urge that this Court grant the writ.
Respectfully submitted,
JASON P. GOTTLIEB
Counsel of Record
DANIEL C. ISAACS
VALERIE SIROTA
MORRISON COHEN LLP
909 Third Avenue
New York, New York 10022
(212) 735-8600
jgottlieb@morrisoncohen.com
Counsel for Amici Curiae
Cayman Finance and
Recovery and Insolvency
Specialists Association of the
Cayman Islands
Dated: September 30, 2019

